J'

Michael P. Burke, Esq.
Gordon Rees Scully Mansukhani, LLP
21 Custom House Street
5th Floor
Boston, MA 02110
857-263-2000
mburke@grsm. com
Counsel for David and Charles Koch
Cynthia A. Young
Assistant U. S. Attorney
United States Federal Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 62210
617-748-3100
cynthia.young@usdoj .gov
Counsel for the Department of Justice
Anita Johnson
Assistant U.S. Attorney
United States Federal Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
617-748-3100
anita .johnson@usdoj .gov
Counsel for the Department of Justice
Jeffrey B. Wall
Acting Solicitor General of the United States
Room 5616
US Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
202-514-2000
supremectbriefs@usdoj .gov
Counsel for the United States

